Inspection Report No. OIG-INS-11-00-09:  Review of Handicap Access
Inspection Report No. OIG-INS-11-00-09  Review of Handicap Access
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
September 8, 2000
To: Angela Crawford
Chief, Procurement and Facilities Branch
From: Jane E. Altenhofen
Inspector General
Subject:  Inspection Report No. OIG-INS-11-00-09:  Review of Handicap Access
We initiated this inspection in July 2000 to determine whether the National Labor Relations Board's (NLRB) leased office spaces met the requirements for handicap accessibility.  The inspection focused on the public's access to NLRB facilities, primarily reception areas, information officer rooms, and hearing rooms.
We found that NLRB offices generally met the standards for handicap accessibility, but had some common deficiencies.  Doors commonly presented problems because the knobs were difficult to use and some doors required too much force to open. Hearing rooms often did not have wide enough pathways, platform areas did not have ramps, and designated spaces for handicapped seating were not provided.  We suggest that the Procurement and Facilities Branch become more knowledgeable about handicap access requirements and more proactive in bringing NLRB office space into compliance.
A draft inspection report was distributed for review and comment on August 18, 2000 to the Chief of the Procurement and Facilities Branch and the Regional Directors for the five offices visited, with an information copy to other Agency officials.  The Facilities and Safety Section Chief provided the only response.  He stated the report was generally accurate and made three comments/corrections, which were incorporated.
SCOPE
We interviewed NLRB staff in the Procurement and Facilities Branch to discuss the process for design and renovation of NLRB office space, and the Division of Operations-Management to obtain descriptions of Regional Offices.  We contacted the handicap access officer at General Services Administration (GSA) to confirm the status of reporting requirements.
We reviewed the: Architectural Barriers Act of 1968 that first established the requirement that Federal buildings be made accessible to the handicapped; Section 504 of the Rehabilitation Act of 1973; and the Americans with Disabilities Act of 1990 (ADA) that extended the requirements for handicap access to privately owned, state, and local government buildings.  We also reviewed the Uniform Federal Accessibility Standards (UFAS) 41 CFR § 101-19.6, Appendix A issued in 1984.
We conducted this inspection at Headquarters and 5 Regional Offices.  We selected Regional Office 4, Philadelphia to test fieldwork. We selected Regional Offices 2 - Manhattan,
7 - Detroit, 13 - Chicago, and 29 - Brooklyn, primarily because these offices had some of the greatest numbers of public walk-ins indicated in the Fiscal Year 1999 Cumulative Public Information Program Quarterly Report compiled by the Information Technology Branch.
For each office, we evaluated the reception areas, the main information officer room, and one or two hearing rooms. For private buildings, we evaluated one of the main entrances and one elevator car.  At Headquarters, we also evaluated all four floors of the parking garage and one elevator car.
We used the UFAS Checklist prepared by Barrier Free Environments and the UFAS Retrofit Manual prepared by the U.S. Architectural & Transportation Barriers Compliance Board to conduct our inspection.  For each area, we selected the appropriate UFAS survey forms that included parking, pathways, ramps, entrances, doors and gates, elevators, rooms and spaces, and assembly rooms.
BACKGROUND
The 10th anniversary of the ADA was celebrated in July 2000. President Clinton stated that the Federal Government should lead the way in making this country more handicap friendly.  The President also issued Presidential Proclamation No. 7327 entitled "Spirit of the ADA Month," in which the President noted that taking steps to allow greater access through construction and renovation of facilities is the key to achieving equality for handicapped individuals.
The Architectural Barriers Act of 1968 required that buildings and facilities that are designed, constructed, altered or leased by or on behalf of the Federal Government must be accessible.  The UFAS, issued in 1984, established minimal requirements as well as recommended levels of compliance.  For example, doors must be a certain width but do not have to open automatically, and elevators must have raised buttons but not braille. Despite the 16 years that the regulations have been in effect, recent newspaper reports indicate that some public buildings still do not meet the minimum requirements for handicap accessibility.
The responsibility for ensuring compliance is not clearly established. The GSA owns and leases all Federal buildings.  Some Regional Offices are located in older buildings with existing compliance issues when the Board moved into the space.  Current leases include a standard clause that construction must comply with handicap requirements.  Staff in the Procurement and Facilities Branch, who design and oversee renovations in NLRB offices were aware that the handicap requirements existed, and corrected some deficiencies during office relocations and/or space reallocations.  However, staff in the Procurement and Facilities Branch primarily relied on GSA and the contractors to ensure compliance with the requirements.  This practice of reliance on GSA is problematic because GSA cannot know critical information such as whether a counter will be used as a work surface.  Additionally, efforts to identify and update older furniture and ensure appropriate placement of furniture and fixtures within rooms are totally within the NLRB's control.
FINDINGS
A summary of the findings discussed below is presented in the attachment.
Main Entrance
Four NLRB offices were in private buildings. All of the main entrances, with the exception of Headquarters, had revolving and hinged doors.  Only one entrance had a power assisted hinged door.  We evaluated the accessible route to the main entrance and one hinged door at each office.
The doors were of proper width, opened within the established force limits, and handles could be opened using one closed fist.  We identified one area of non-compliance:
The UFAS requires that ramps rising more than 6 inches or longer than 72 inches must have handrails on both sides.  The Headquarters main entrance provides a ramp that rises 10 inches and is 84 inches long, but does not have handrails on either side of the ramp.
Elevators
The four offices in private buildings were located on floors 5 through 11 at Headquarters, 7 in Regional Office 4, 8 in Regional Office 13, and 10 in Regional Office 29. One elevator car was evaluated at each location. Hallway call buttons were inspected on the floor where each Regional Office was located and the lobby at Headquarters.
All elevator cars were of proper width and length and doorways were of proper width.  All elevator cars came to a stop at the required vertical distance from the floor.  The doors to each elevator remained open for a minimum of three seconds and opened and closed automatically.  All hallway call buttons were centered at the appropriate height from the floor. The entranceway floor numbers were of the proper height and letter size. All elevators had communications devices installed. We identified the following areas of non-compliance:
The UFAS requires that there be audio and visual signals designating the arrival of a car and that the audible signal should be once for up and twice for down.  Two of the four elevators inspected only had one ring for both up and down when a call was answered.
The UFAS requires that there be an entrance way floor designation 60 inches high that is raised, has lettering that is no smaller than 2 inches tall, and contrasts with the background.  One Regional Office did not have an entrance way floor designation.  In two Regional Offices, the floor designation numbers did not contrast with the background.
The UFAS requires that the elevator control panel numbers be raised 1/32 of an inch, located to the left of the buttons, no higher than 48 inches off the floor, and must contrast with their background.  Three Regional Offices had deficiencies. Two elevators had raised symbols that were located to the right of the buttons, two elevators had buttons that were more than 48 inches off the floor, and one elevator did not have contrasting buttons.
The UFAS requires that the elevator car not have more than 1 1/4 inch horizontal gap between the car and the floor.  One Regional Office had a car with a 1 1/2 inch horizontal gap.
The UFAS requires that a two-way communication device be available in each car and that it be designated by a raised symbol and emergency buttons grouped at the bottom of the control.  None of the elevators provided a raised symbol for the communications device, although a flat symbol was provided.  In one Regional Office, the car did not have grouped emergency buttons at the bottom of the control panel; instead the buttons were grouped at the top of the control panel.
Reception Areas
All five Regional Offices had reception areas.  Four out of the five Regional Offices had entrances with double doors and one door was always locked.  A security counter and glass partition separated the receptionist and inner offices from the reception area.  Access to the inner offices was controlled by a locked door that could be operated with a buzzer release.  Two offices had a desk in the reception area for the public use in viewing charges and petitions.  We evaluated access to the reception areas, work surfaces, and wall-mounted objects in each office.
All of the doors had adequate maneuvering space on both the pull side and the push side of the entrances and each area had the proper headroom.  All floor surfaces were compliant and all light switches were the proper height on the wall.  All reception areas had accessible pathways from the entrance and elevators to the security window. We identified the following areas as being non-compliant:
The UFAS requires that doors have a minimum 32 inch passageway. In one Regional Office, the individual doors in the double doorway were only 25 inches wide.
The UFAS requires that all interior doors must not take more than 5 pounds of force to open.  Two Regional Offices each had a door that required 11-12 pounds to open.
The UFAS requires that the doorknobs be operable with one hand and not require any tight pinching, grasping, or twisting of wrist to open.  One of the Regional Offices had round doorknobs on the doors into the reception area that could not be opened using the round fist test illustrated in the UFAS.
The UFAS requires that all wall mounted objects between 27 and 80 inches high must not project 4 inches or more into adjacent space.  All five security counters were within the height range, but three counters projected from 6 to 12 inches.
The UFAS requires that all permanent signage marking room locations be within specified sign width to height ratios, and letter width to height ratios. Four Regional Offices had signage designating rooms; and three had signs and/or letters with too small or large ratios.
The UFAS requires that signage designating rooms must have raised lettering and be on the latch side of the door between 54 and 66 inches high.  Three Regional Offices had the signage on the door itself and the lettering was not raised. The one Regional Office with signage on the latch side had indented lettering.
The UFAS requires that all work surfaces must be 27 inches high, 30 inches wide, and 19 inches deep.  Two Regional Offices had desks in the reception area; one was 25 inches high and the other was 17 inches deep.
Information Officer Rooms
All five Regional Offices had separate information officer rooms.  The public had direct access to the information officer rooms from the reception area in two Regional Offices. The information officer rooms in the other three Regional Offices were located beyond the reception area accessed through a controlled door.  The information officer rooms are used to meet with members of the public to review forms and answer questions, but not to prepare forms. We evaluated the door providing access to the room, pathways, work surfaces, and wall-mounted objects in each office.
The doors were of proper width and easily opened, and all rooms had an accessible pathway from the reception area into the room and slip resistant, stable, and firm floor surfaces.  We identified the following areas of non-compliance:
The UFAS requires that all handles, locks and latches be operable with one hand and not require tight pinching, grasping or twisting of the wrist. All of the Regional Offices had round knobs and the doors could not be opened using the round fist test.
The UFAS requires that light switches must be between 15 and 48 inches high if approaching from the front or between 15 and 54 inches high if approaching from
a parallel position.  One Regional Office had light switches designed for a parallel approach affixed at 62 inches on the wall.
Hearing Rooms
All five Regional Offices and Headquarters had at least two hearing rooms. Each Regional Office had one large hearing room that seats more than 50 people and one or two smaller hearing rooms that seat less than 50 people.  Each of the Regional Offices hearing rooms had a judge's bench, witness box, and court reporter unit that sat upon a raised platform; all but one were connected units. One Regional Office and Headquarters had gates separating the public seating area for the attorneys, parties and judges.  Three Regional Offices and Headquarters had small anterooms that led to the hearing rooms. We evaluated the accessibility and seating of the hearing rooms.
Each of the hearing rooms had slip resistant, stable, and firm floor surfaces.  All of the carpeting in the hearing rooms was low pile with padding underneath.  The doors were all the proper width.  However, the non-compliant issues identified were as follows:
The UFAS requires that all interior doors must not take more than 5 pounds of force to open.  Regional Office 7 had a door in the hallway leading to the hearing rooms that required 14 pounds of force to open.
The UFAS requires that a certain amount of maneuvering room be allowed depending on if the person is approaching from the latch side, hinge side, or front approach and if they are on the push or pull side of the door.  Three Regional Offices had doors that did not provide sufficient maneuvering room to use in opening doors.  One Regional Office had 6 rather than 24 inches to the adjacent wall on the latch approach/push side. One Regional Office had 5.5 rather than 18 inches to the adjacent wall from a front approach/push side to the small hearing room, and had 14.5 rather than 18 inches to the adjacent wall from a front approach/pull side for the door in the hallway leading to the hearing rooms.  One Regional Office had 42 rather than 60 inches to the adjacent wall from a front approach/push side.
The UFAS requires that the doorknobs be operable with one hand and not require any tight pinching, grasping, or twisting of wrist to open.  Three Regional Offices had doorknobs that were round and could not be opened using the closed fist test.
The UFAS requires that gates meet all of the provisions for doors.  One Regional Office had a gate with a latch that failed the closed fist test.
The UFAS requires that assembly rooms with 50-75 person seating capacity include three designated wheelchair spaces. None of the 50+ hearing rooms provided any designated wheelchair spaces.
The UFAS requires that all level changes of 1/2 inch or greater are ramped.  None of the Regional Offices provided ramps for the raised platforms that were between 5 and 7 inches high in the hearing rooms.  Headquarters had a portable ramp that could be used in the hearing rooms, although the Washington, D.C. Resident Office responsible for setting up the hearing room was not aware that it existed.
The UFAS requires that there be accessible pathways to performance areas (witness box) from accessible seating locations.  Four Regional Offices had bolted down benches for seating in the hearing rooms; the benches were 18 to 32 inches from the wall or another bench rather than at least 36 inches. One Regional Office had movable benches that were placed to allow 34 rather than 36 inches of access.
The UFAS requires that either a portable or permanent listening system be provided in assembly rooms with 50+ seating capacity.  One Regional Office and Headquarters had audio-amplification systems, but did not have a permanent listening system.  The other Regional Offices did not have an audio-amplification system and did not have a permanent or portable listening system.
The UFAS requires that any wall-mounted object between 27 and 80 inches high project less than 4 inches from the wall.  The anteroom in one Regional Office had wall-mounted phone booths (without phones) that projected 12.5 inches.
Parking
The Headquarters parking garage has four levels and contains 425 parking spaces.  Each parking level has an elevator lobby that provides access to the west side of the building.  We reviewed the accessibility of the parking lots.
The Headquarters parking garage had the required 13 handicap accessible parking spaces.  The following area was identified as non-compliant:
The UFAS requires that each handicap accessible parking space be designated with a vertical sign that is unobscured by a parked vehicle and shows the universal symbol of accessibility.  Parking level 4 had two handicap spaces, but only one was designated with the proper vertical signage.
SUGGESTIONS
We suggest that the Procurement and Facilities Branch become more knowledgeable about the handicap access requirements and more proactive in bringing NLRB office space into compliance.  Ideally, a long-range plan to review and upgrade furniture and facilities would be developed.  At a minimum, offices should be brought into compliance when moving locations, renovating, or purchasing new furniture.
Attachment (Investigation Findings)
cc:  The Board
General Counsel
Director of Administration